                  DEPARTMENT OF HOMELAND SECURITY
                                   Office of Inspector General
                                    Washington, DC 20528




                                      February 13, 2004

MEMORANDUM

TO:            The Honorable Tom Ridge, Secretary

FROM:          Clark Kent Ervin, Inspector General

SUBJECT:    Independent Auditors’ Report on DHS’ Financial Statements
            Audit Report No. OIG-04-10
_________________________________________________________________________

This memorandum transmits and serves as an executive summary of the Independent
Auditors’ Report prepared by the independent public accounting firm KPMG LLP (KPMG),
which audited DHS’ financial statements as of September 30, 2003, and for the seven months
then ended, as required by the Accountability of Tax Dollars Act of 2002.

DHS is to be congratulated on preparing its first set of financial statements for audit, a
noteworthy event accomplished under difficult circumstances. When this audit started in
May 2003, DHS was just two months old and represented one of the largest and most
complex reorganizations of the federal government ever. DHS was still in the process of
organizing itself and transferring agencies and programs, and its ability to produce financial
statements was untested. Despite limited staff with many other responsibilities, DHS agreed
to accept the challenge of a financial statement audit even though it added strain to its
relatively limited resources. DHS management agreed with the Office of Inspector General
that an audit would establish a solid baseline from which it could plan for and build good
financial management processes. Thanks to this audit, DHS now has that solid baseline for
improvement.

Summary of Auditors’ Opinion

KPMG gave a qualified opinion on the consolidated balance sheet and statement of custodial
activity, meaning that, except for certain items described below, they were presented fairly
and free of material misstatements. KPMG was unable to provide an opinion on the
remaining statements for the reasons also discussed below.

The qualification on the balance sheet related to: (1) the lack of sufficient documentation
provided prior to the completion of KPMG’s audit procedures to support $2.9 billion in
property, plant, and equipment at the U.S. Coast Guard; (2) KPMG’s inability to observe
inventory or otherwise verify $497 million in operating materials and supplies at the U.S.
Coast Guard; and (3) the lack of sufficient documentation provided prior to the completion of
KPMG’s audit procedures to support retirement benefits recorded at $3.3 billion at the U.S.
Secret Service and post-employment benefits recorded at $201 million at the U.S. Coast
Guard. Unlike some of the other large bureaus that came into DHS, the U.S. Coast Guard’s
financial statements had never been audited on a stand-alone basis, nor had they been audited
at the level of detail required at DHS. It is not uncommon for a large established agency
such as the U.S. Coast Guard to require additional time to get its processes and systems in
place to facilitate a financial statement audit. The U.S. Secret Service has already started
corrective actions related to its retirement benefits.

KPMG was unable to provide an opinion on the consolidated statements of net cost and
changes in net position, the combined statement of budgetary resources, and the consolidated
statement of financing for several reasons. First, several “legacy” agencies (agencies from
which component entities or functions were transferred to DHS) submitted accounting and
financial information over which DHS had limited control. Consequently, the auditors were
unable to complete procedures relating to revenue, costs, and related budgetary transactions
reported by the legacy agencies to DHS. In addition, the U.S. Coast Guard was unable to
provide sufficient documentation prior to the completion of KPMG’s audit procedures to
support certain revenues, costs and related budgetary transactions.

Internal Controls

Under standards issued by the American Institute of Certified Public Accountants,
“reportable conditions” are matters coming to the auditors’ attention relating to significant
deficiencies in the design or operation of internal controls that, in the auditors’ judgment,
could adversely affect the department’s ability to record, process, summarize, and report
financial data consistent with the assertions of management in the financial statements.
“Material weaknesses” are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions.

       Summary of Material Weaknesses

The following are highlights from the material weaknesses described in the Independent
Auditors’ Report.

Financial Management and Personnel: DHS’ Office of the Chief Financial Officer
(OCFO) needs to establish financial reporting roles and responsibilities, assess critical needs,
and establish standard operating procedures (SOPs). These conditions were not unexpected
for a newly created organization, especially one as large and complex as DHS. The U.S.
Coast Guard and the Strategic National Stockpile had weaknesses in financial oversight that
have led to reporting problems, as discussed further below.
Financial Reporting: Key controls to ensure reporting integrity were not in place, and
inefficiencies made the process more error prone. At the U.S. Coast Guard, the financial
reporting process was complex and labor-intensive. Several DHS bureaus lacked clearly
documented procedures, making them vulnerable to the loss of key people.

Financial Systems Functionality and Technology: The auditors found weaknesses across
DHS in its entity-wide security program management and in controls over system access,
application software development, system software, segregation of duties, and service
continuity. Many bureau systems lacked certain functionality to support the financial
reporting requirements.

Property, Plant, and Equipment (PP&E): The U.S. Coast Guard was unable to support $2.9
billion in PP&E due to insufficient documentation provided prior to the completion of
KPMG’s audit procedures, including documentation to support its estimation methodology.
The Transportation Security Administration (TSA) lacked a comprehensive property
management system and adequate policies and procedures to ensure the accuracy of its
PP&E records.

Operating Materials and Supplies (OM&S): Internal controls over physical counts of
OM&S were not effective at the U.S. Coast Guard. The U.S. Coast Guard also had not
recently reviewed its OM&S capitalization policy, leading to a material adjustment to its
records when an analysis was performed.

Actuarial Liabilities: The U.S. Secret Service did not record the pension liability for certain
of its employees and retirees, and when corrected, the auditors had insufficient time to audit
the amount recorded. The U.S. Coast Guard also was unable to provide sufficient
documentation to support $201 million in post-service benefits.

Transfers of Funds, Assets, and Liabilities to DHS: DHS lacked controls to verify that
monthly financial reports and transferred balances from legacy agencies were accurate and
complete.

       Other Reportable Conditions
The following are highlights from the Independent Auditors’ Report.

Drawback Claims on Duties, Taxes, and Fees: The Bureau of Customs and Border
Protection’s (CBP) accounting system lacked automated controls to detect and prevent
excessive drawback claims and payments.

Import Entry In-bond: CBP did not have a reliable process of monitoring the movement of
“in-bond” shipments -- i.e., merchandise traveling through the U.S. that is not subject to duties,
taxes, and fees until it reaches a port of destination. CBP lacked an effective compliance
measurement program to compute an estimate of underpayment of related duties, taxes, and
fees.
Acceptance and Adjudication of Immigration and Naturalization Applications: The
Bureau of Citizenship and Immigration Services’ (CIS) process for tracking and reporting the
status of applications and related information was inconsistent and inefficient. CIS did not
perform cycle counts of its work in process that would facilitate the accurate calculation of
deferred revenue and reporting of related operational information.

Fund Balance with Treasury (FBWT): The U.S. Coast Guard did not perform required
reconciliations for FBWT accounts and lacked written SOPs to guide the process, primarily
as the result of a new financial system that substantially increased the number of reconciling
differences.

Intra-governmental Balances: Several large DHS bureaus had not developed and adopted
effective SOPs or established systems to track, confirm, and reconcile intra-governmental
balances and transactions with their trading partners.

Strategic National Stockpile (SNS): The SNS accounting process was fragmented and
disconnected, largely due to operational challenges caused by the laws governing the SNS.
A $485 million upwards adjustment had to be made to value the SNS in DHS’ records
properly.

Accounts Payable and Undelivered Orders: CIS and the Bureau of Immigration and
Customs Enforcement, TSA, and the U.S. Coast Guard had weaknesses in their processes for
accruing accounts payable and /or reporting accurate balances for undelivered orders.

       Status of Prior Year Material Weaknesses

DHS inherited 18 material weaknesses from the former U.S. Customs Service, the former
Immigration and Naturalization Service, the Federal Emergency Management Agency, and
TSA. KPMG determined that nine of the material weaknesses were corrected or partially
corrected. The remaining ones were consolidated into the seven DHS material weaknesses or
reclassified to a reportable condition or other matter for management’s attention.

Compliance with Laws and Regulations

KPMG identified weaknesses in DHS’ reporting process for the Federal Managers’ Financial
Integrity Act of 1982 and instances of non-compliance with the Federal Information Security
Management Act. KPMG also noted instances where DHS was not in full compliance with
Office of Management and Budget Circular A-133, subpart D – Federal Agencies and Pass-
Through Entities and Appendix B, Compliance Supplement.

OIG Responsibility

We contracted with KPMG to audit the financial statements of DHS as of September 30,
2003 and for the seven months then ended. The contract required that the audit be done in
accordance with U.S. generally accepted government auditing standards, OMB’s bulletin,
Audit Requirements for Federal Financial Statements, and the GAO/PCIE Financial Audit
Manual.

In connection with the contract, we reviewed KPMG’s report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance
with U.S. generally accepted government auditing standards, was not intended to enable us to
express, and we do not express, opinions on DHS’ financial statements or internal controls.
Likewise, we cannot and do not express conclusions on DHS’ compliance with laws and
regulations. KPMG is solely responsible for the attached auditor’s report dated January 30,
2003 and the conclusions expressed in the report. However, our review disclosed no
instances where KPMG did not comply, in all material respects, with U.S. generally accepted
government auditing standards.

Attachment
